<html>
<title> - PENDING LEGISLATION</title>
<body><pre>[Senate Hearing 116-335]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 116-335
 
                          PENDING LEGISLATION

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

                                 OF THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                                   on


               S. 607                       S. 2137
               S. 1739                      S. 2300
               S. 1821                      S. 2368
               S. 2094                      S. 2393
               S. 2095
 
                                __________
 
                           SEPTEMBER 11, 2019

                               __________
                               
                               
                               
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                             
                               
                               


                       Printed for the use of the
               Committee on Energy and Natural Resources
               
               
               

        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
        
                           ______

              U.S. GOVERNMENT PUBLISHING OFFICE 
 37-815             WASHINGTON : 2021        
        
        
        
        
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               JOE MANCHIN III, West Virginia
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       MARIA CANTWELL, Washington
STEVE DAINES, Montana                BERNARD SANDERS, Vermont
BILL CASSIDY, Louisiana              DEBBIE STABENOW, Michigan
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
CINDY HYDE-SMITH, Mississippi        MAZIE K. HIRONO, Hawaii
MARTHA McSALLY, Arizona              ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           CATHERINE CORTEZ MASTO, Nevada
JOHN HOEVEN, North Dakota

                         SUBCOMMITTEE ON ENERGY

                         BILL CASSIDY, Chairman
JAMES E. RISCH                       MARTIN HEINRICH
MIKE LEE                             RON WYDEN
STEVE DAINES                         MARIA CANTWELL
CORY GARDNER                         BERNARD SANDERS
CINDY HYDE-SMITH                     DEBBIE STABENOW
MARTHA McSALLY                       MAZIE K. HIRONO
LAMAR ALEXANDER                      ANGUS S. KING, JR.
JOHN HOEVEN                          CATHERINE CORTEZ MASTO

                      Brian Hughes, Staff Director
                     Kellie Donnelly, Chief Counsel
  Brianne Miller, Senior Professional Staff Member and Energy Policy 
                                Advisor
                      Jed Dearborn, Senior Counsel
                Sarah Venuto, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                Renae Black, Democratic General Counsel
                
                
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Cassidy, Hon. Bill, Subcommittee Chairman and a U.S. Senator from 
  Louisiana......................................................     1
Wyden, Hon. Ron, a U.S. Senator from Oregon......................     1
Heinrich, Hon. Martin, Subcommittee Ranking Member and a U.S. 
  Senator from New Mexico........................................    17

                               WITNESSES

Menezes, Hon. Mark W., Under Secretary, U.S. Department of Energy     2
Portman, Hon. Rob, a U.S. Senator from Ohio......................    19
Whitehouse, Hon. Sheldon, a U.S. Senator from Rhode Island.......    19
Porter, Anton C., Executive Director, Federal Energy Regulatory 
  Commission.....................................................    20
Shaheen, Hon. Jeanne, a U.S. Senator from New Hampshire..........    26

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Acuity Brands, et al.:
    Letter for the Record........................................    30
Air Conditioning Contractors of America:
    Letter for the Record........................................    89
Air-Conditioning, Heating, & Refrigeration Institute:
    Letter for the Record........................................    33
Alliance to Save Energy, et al.:
    Letter for the Record........................................    91
American Chemistry Council:
    Letter for the Record dated 7/9/19...........................    34
    Statement for the Record dated 7/25/19.......................    36
American Public Power Association and National Rural Electric 
  Cooperative Association:
    Letter for the Record........................................    93
American Society of Heating, Refrigerating and Air-Conditioning 
  Engineers (ASHRAE):
    Letter for the Record........................................    38
BASF Corporation:
    Letter for the Record........................................    40
Cassidy, Hon. Bill:
    Opening Statement............................................     1
    Written Statement............................................    11
Duckworth, Hon. Tammy:
    Statement for the Record.....................................    94
Duke Energy:
    Letter for the Record........................................    41
Edison Electric Institute:
    Letter for the Record........................................    95
Heinrich, Hon. Martin:
    Written Statement............................................    17
Industrial Energy Consumers of America:
    Letter for the Record........................................    42
Leading Builders of America:
    Letter for the Record........................................    44
Menezes, Hon. Mark W.:
    Opening Statement............................................     2
    Written Testimony............................................     5
    Responses to Questions for the Record........................    73
NAIOP, the Commercial Real Estate Development Association:
    Letter for the Record........................................    46
National Association of Clean Water Agencies:
    Letter for the Record........................................    47
National Association of State Energy Officials:
    Letter for the Record dated 6/19/19..........................    48
    Letter for the Record dated 6/10/19..........................    96
National Rural Electric Cooperative Association:
    Letter for the Record........................................    97
Nuclear Energy Institute:
    Letter for the Record........................................    49
Olson, Hon. Pete:
    Statement for the Record.....................................    28
Porter, Anton C.:
    Opening Statement............................................    20
    Written Testimony............................................    23
    Responses to Questions from Senator Cantwell.................    60
    Responses to Questions for the Record........................    88
Portman, Hon. Rob:
    Opening Statement............................................    19
(The) Real Estate Roundtable:
    Letter for the Record........................................    51
Shaheen, Hon. Jeanne:
    Opening Statement............................................    26
Whitehouse, Hon. Sheldon:
    Opening Statement............................................    19
Wyden, Hon. Ron:
    Opening Statement............................................     1

----------
The text for each of the bills which were addressed in this hearing can 
be found on the committee's website at: https://www.energy.senate.gov/
hearings/2019/9/subcommittee-on-energy-legislative-hearing.


                          PENDING LEGISLATION

                              ----------                              


                     WEDNESDAY, SEPTEMBER 11, 2019

                               U.S. Senate,
                            Subcommittee on Energy,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:15 p.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Bill Cassidy, 
presiding.

            OPENING STATEMENT OF HON. BILL CASSIDY, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Cassidy [presiding]. The Committee will come to 
order.
    We are going to have testimony, and we are trying to hustle 
because we have votes at 2:45.
    Senator Wyden has another commitment. He asked if he can go 
first. That is fine with Senator Heinrich and I.
    Senator Wyden, we will start with you, and then we will 
turn to Under Secretary Menezes and Mr. Porter. Out of 
deference to my Senate colleague, I am nonetheless told that we 
must do that for some sort of procedural aspect.
    Senator Wyden.

                 STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. Mr. Chairman and Senator Heinrich, thank you 
both for your thoughtfulness, and I am going to clock this in 
at under three minutes because I know our witnesses' time is 
short.
    Mr. Chairman and colleagues, I had the opportunity this 
summer to be with those at Oregon State University who are most 
knowledgeable in marine energy research and development. Oregon 
State University is a national leader in the development of new 
marine energy technologies. They partner with the University of 
Washington and the University of Alaska at Fairbanks. They co-
manage the Pacific Marine Energy Center, a DOE test center 
established in 2008, to advance marine energy technologies.
    What we talked about there, and I will wrap up with this, 
are essentially what are the next steps. I am interested in 
working with my colleagues here and Chair Murkowski. The Marine 
Energy Research and Development Act builds on efforts underway 
at the Department of Energy (DOE) by giving the Water Power 
Office more funding to quicken American innovation and spur 
production in marine energy technologies.
    What the legislation does is it directs the Water Power 
Office to support efforts in the private sector, national labs, 
and the Marine Energy Centers and focus on advanced energy 
technologies that are capable of generating more marine energy 
more affordably and with a smaller carbon footprint.
    I am going to break the speechifying off by saying I think 
all of us have been concerned with respect to marine energy, 
that we want to be sensitive to fisheries and marine 
navigation. We are doing that. I also want to commend the folks 
at DOE with the Powering the Blue Economy.
    I will put the rest of my statement, Mr. Chairman, with 
your permission and that of Senator Heinrich's, in the record.
    Senator Cassidy. Without objection.
    Senator Wyden. Thank you. Thank you both.
    Senator Cassidy. Under Secretary Menezes.

      STATEMENT OF HON. MARK W. MENEZES, UNDER SECRETARY, 
                   U.S. DEPARTMENT OF ENERGY

    Mr. Menezes. Thank you, Chairman Cassidy, Ranking Member 
Henrich and members of the Subcommittee.
    Senator Wyden, thank you for your comments on the Power the 
Blue, and I'll reference your bill.
    It's a privilege and honor to serve at the Department of 
Energy, an agency tasked with, among many other important 
responsibilities, overseeing the nation's energy supply, our 17 
national labs supporting early stage energy R&D across a wide 
range of science and engineering disciplines and working 
effectively with our states and tribes on our nation's energy 
challenges.
    First, I'd like to, of course, thank the members of this 
Committee for your advocacy resulting in the confirmation of 
our Director of Advanced Research Projects Agency-Energy, ARPA-
E, Lane Genatowski, appreciate your support for that. And we're 
very pleased to have gotten confirmed, Dr. Rita Baranwal, who 
now heads up our Nuclear Energy Office. Thank you very much for 
that support.
    Thank you for the opportunity to testify before you today 
regarding the legislation that's pertinent and important to the 
Department of Energy which is now pending before the Senate. 
The Administration continues to review all of these bills, 
although we have provided some technical assistance to your 
staff, as requested.
    The Department is grateful for the Committee's attention to 
these critical issues. In the energy sector we believe the 
research and development capabilities consistently demonstrated 
by our national labs is unrivaled and provide unique 
opportunities to address key challenges working with industry, 
academia and the states.
    The President's America First Energy Plan rightly calls for 
utilizing all of our energy sources to achieve energy security 
and economic strength at home and energy dominance through 
exports to markets abroad.
    Today's hearing addresses many areas, including 
reauthorizing many important nuclear energy research and 
development programs to ensure the long-term viability of the 
existing fleet of the nuclear power plants; support for state 
and local government's energy infrastructure; promoting 
innovation with the Clean Energy Technologies Market, 
specifically including carbon capture, as Senator Wyden 
mentioned; accelerating the introduction of marine renewable 
energy into the U.S. energy supply; support for grid 
resiliency; and finally, supporting the training and 
development of an emerging generation of energy jobs. Each of 
these are, indeed, crucial factors in advancing energy 
resilience, protecting and projecting America's power overseas 
and securing our economic and national security.
    DOE has a long and successful history of working with 
states on the nation's most significant energy challenges. 
Nearly all state and territory governments and select local 
governments have an energy security or assurance plan which 
serves as a foundation for action when an energy disruption 
threatens public welfare or when the energy industry requests 
help. These plans address energy supply risks and 
vulnerabilities and enable a quick recovery and restoration. 
Combined with training and exercises for personnel and 
stakeholders, energy assurance plans enhance response and 
recovery efforts and support resiliency investments.
    Specifically, the bills associated with supporting states 
and local governments, S. 2094 and S. 2095, will continue a 
long and successful history of working with states as a 
reliable partner on the nation's most significant energy 
challenges. We must continue to evaluate the risks facing our 
nation's energy infrastructure and mitigate high risk 
scenarios. So we thank you for supporting our efforts to do 
this. The Department, specifically the Office of Electricity, 
has been a leader in this area with its efforts focused on 
electricity resilience, investing in energy storage, 
microgrids, sensors and advanced modeling.
    Additionally, your bills on the Department's Office of 
Cyber will help our Department's Office of Cybersecurity, 
Energy Security, and Emergency Response (CESER) provide 
guidance and support for state energy and emergency officials 
to ensure that their energy assurance and security plans and 
related planning efforts are regularly updated and tested.
    Your bills promote an important function of the Department 
which is to provide support for states and local governments to 
develop and refine energy assurance plans and build 
institutional expertise on understanding interdependencies and 
vulnerabilities. These plans address energy supply and security 
risks and vulnerabilities, support resiliency investments and 
enable technology advancement to improve energy security.
    Keenly aware of the threats posed by physical and 
cyberattacks as well as natural disasters, as we have just seen 
with the hurricane off of our coast, our Office of Electricity 
and the CESER Office have been working with several offices 
within the Department to maintain the kind of readiness needed 
to withstand the fiercest and most sophisticated attacks 
imaginable. Your bills would further enable the Department to 
serve as a foundation for robust preparedness, response and 
recovery efforts across governments, the electricity, oil and 
natural gas industries.
    Now, having spent most of my career working throughout 
multiple segments of the energy industry, I know firsthand the 
national importance of maintaining a robust workforce that 
requires an extraordinary level of technical expertise.
    The Department of Energy National Labs Jobs ACCESS Act and 
Clean Energy Jobs Act of 2019 will serve to fulfill that market 
reality, the need for a skilled, technical workforce, 
especially at the national labs and certain facilities within 
the NNSA.
    I also thank you for presenting a bill that grants the 
Commissioner of FERC the additional funding and flexibility to 
hire experts to service the growing number of projects over 
which FERC has jurisdiction.
    Finally, it is important to highlight that without this 
Committee's assistance, advancing critical technologies, such 
as artificial intelligence, advanced data analytics, grid-scale 
storage and carbon capture, utilization and sequestration, 
would simply not be possible.
    And so, before I close, let me say thank you for advancing 
Senate bill 143, DOE's Veterans' Health Initiative Act, as you 
have shown that you know the health of our nation's veterans is 
of utmost importance to the Trump Administration, to Congress 
and, of course, the Department of Energy.
    We recently have begun standing up an Office of Artificial 
Intelligence which will perform a myriad of functions for the 
nation and, specifically, the nation's vets. DOE-fueled 
advancements in artificial intelligence and machine learning 
are helping researchers identify and neurologists treat 
traumatic brain injuries and other mental health conditions 
paving the way for better outcomes and a better future for our 
nation's war fighters.
    In conclusion, let me thank you again for the opportunity 
to be here today. The Department appreciates the ongoing, 
bipartisan efforts to address our nation's energy challenges, 
and we look forward to working with the Committee on the 
legislation today, any future legislation. I look forward to 
your questions and our discussion.
    Thank you.
    [The prepared statement of Mr. Menezes follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  
    
    Senator Cassidy. Mr. Porter, we are going to call an 
audible.
    I understand that we wanted you guys to testify first 
because we are going to bump up against votes, but Senator 
Heinrich and I are both going to submit our statements for the 
record.
    [Statements of Senator Cassidy and Senator Heinrich 
follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Cassidy. I think we have time for Senators Portman 
and Whitehouse to testify, and then we will come back to you 
before we go to votes.
    Senator Portman, would you go next please?

                STATEMENT OF HON. ROB PORTMAN, 
                     U.S. SENATOR FROM OHIO

    Senator Portman. Thank you, Mr. Chairman, and I appreciate 
you and Senator Heinrich letting us come by today and the 
opportunity to give a brief statement on the Subcommittee 
legislation you're looking at today which is S. 2137 that 
Senator Shaheen and I have worked on for the past eight years, 
that's the Energy Savings and Industrial Competitiveness Act.
    Back in 2015, as you remember, Mr. Chairman, President 
Obama did sign a few pieces of this legislation into law, but 
most of the legislation was caught up at the House. We did pass 
it in the Senate by an overwhelming vote of 85 to 12 and this 
Committee has approved it overwhelmingly, on a bipartisan 
basis, in the last four Congresses.
    I would also like to thank the Under Secretary for being 
here today and for the Department's support of our energy 
efficiency efforts. During Secretary Perry's confirmation, he 
committed to working with me to get this across the line, as 
you know, and we look forward to continuing to work with both 
of you.
    It improves energy efficiency in basically three areas: 
residential and commercial buildings, manufacturing, and then 
the biggest energy user of all in the United States which is 
our Federal Government.
    The greenhouse gas emission reductions are equivalent to 
taking about 11 million cars off the road. We think even more. 
We are getting more studies on that. But it just makes sense. 
It is good for the economy. It is good for the environment. It 
is good for jobs.
    I am proud it doesn't include heavy-handed mandates, 
something, Mr. Chairman, some colleagues on the other side of 
the aisle have been concerned about. In fact, the building code 
sections, in particular, are completely voluntary. We developed 
a compromise that's supported by a wide range of groups, 
including energy efficiency advocates, environmental groups, 
industry states and even some of the home builder groups.
    I'd like to thank the other co-sponsors of the legislation 
in the Senate, but also our House sponsors. We have an 
identical House companion bill, and that would be 
Representatives McKinley and Welch who stuck with us.
    So it is time to get this bill passed once and for all.
    I appreciate you letting us come by today and really 
appreciate your holding the hearing today.
    Senator Cassidy. Thank you.
    Senator Whitehouse.

             STATEMENT OF HON. SHELDON WHITEHOUSE, 
                 U.S. SENATOR FROM RHODE ISLAND

    Senator Whitehouse. Let me thank Chairman Cassidy and 
Ranking Member Heinrich for inviting me here today. Thank you, 
Senator King, for being here.
    And let me also applaud the full Energy Committee, under 
the leadership of Senators Murkowski and Manchin, for reviewing 
legislation that would boost energy storage, advanced nuclear, 
energy efficiency, carbon capture, renewables, and grid 
modernization.
    Today, the Subcommittee is going to be considering other 
important measures, including my bill with Senators Manchin, 
Capito, Braun, Booker, Collins and Feinstein, targeting 
emissions from the industrial and heavy-duty transportation 
sectors like steel, cement, chemicals and emissions from 
commercial airplanes and trucking.
    Around 30 percent of U.S. greenhouse gas emissions come 
from these sectors, yet few technologies exist to substantially 
reduce their emissions. Our bill sets up a new Department of 
Energy Advisory Council to fund research and deploy emission 
reduction technologies for these sources and a technical 
assistance program to help local governments support these 
innovations.
    The bill has broad bipartisan support from industry, labor, 
and environmental groups. You don't often hear this, but it's 
supported by the Environmental Defense Fund, the National 
Association of Manufacturers, the Natural Resources Defense 
Council, the U.S. Chamber of Commerce, the American Chemistry 
Council, and the United Steelworkers.
    The House Science Committee today also cleared companion 
legislation led by Representatives Casten, McKinley and Eddie 
Bernice Johnson. So if this moves, it stands a very good chance 
of coming into law.
    This is, of course, one piece of a much larger puzzle that 
ultimately must include putting a price on carbon emissions, a 
price on carbon, that corrects a market failure and puts us on 
a path to avoid the worst climate chaos.
    I appreciate very much the opportunity to be here today, to 
be working with this Committee and Subcommittee, and to help 
develop the broad climate change package that our times 
require.
    Thank you.
    Senator Cassidy. Thank you both.
    Mr. Porter.

   STATEMENT OF ANTON C. PORTER, EXECUTIVE DIRECTOR, FEDERAL 
                  ENERGY REGULATORY COMMISSION

    Mr. Porter. Chairman Cassidy, Ranking Member Heinrich and 
Senator King, my name is Anton Porter and I serve as the 
Executive Director of the Federal Energy Regulatory Commission 
(FERC).
    The Office of the Executive Director is responsible for 
providing administrative support services to the Commission, 
including human resources, financial management, information 
technology, security, procurement, logistics, and 
organizational management. It is my honor to provide testimony 
this afternoon responsive to S. 607, the Timely Review of 
Infrastructure Act.
    As a member of the Commission's staff, the views I express 
in this testimony are my own, and not necessarily those of the 
Commission or of any individual Commissioner.
    The Federal Energy Regulatory Commission is composed of 12 
program offices that support the agency's mission of ensuring 
consumers can obtain economically efficient, safe, reliable, 
and secure energy services.
    Our largest program office, the Office of Energy Projects 
(OEP), is responsible for performing the engineering and 
environmental review of natural gas pipelines, liquefied 
natural gas facilities and non-federal hydroelectric projects.
    The Commission's Office of Electric Reliability helps 
protect and improve the reliability and security of the 
nation's bulk power system through effective regulatory 
oversight of the development of mandatory reliability and 
security standards.
    In addition, the Office of Energy Infrastructure Security 
provides leadership, expertise and assistance to the energy 
industry to identify, communicate and seek comprehensive 
solutions to potential risks of FERC-jurisdictional facilities 
from cybersecurity, from cyberattacks and such physical threats 
as electromagnetic pulses.
    All three offices, which employ specialists in highly 
technical fields, would be impacted by S. 607. For example, OEP 
is made up of 345 specialists, including archeologists, 
biologists, geologists, engineers, environmental protection 
specialists and recreation planners, engaged in infrastructure 
review. In particular, the level of expertise required to 
support FERC's LNG program responsibilities is highly technical 
and scarce within the job market. Due to this scarcity, FERC 
has experienced difficulties recruiting and retaining staff in 
the Washington, DC, area due to compensation constraints. We've 
been forced to replace a third of this valuable expertise over 
this term to keep pace with this rate of attrition. During this 
four-year period, the Commission has constantly attempted to 
recruit candidates to fill these positions, issuing 176 vacancy 
announcements; however, 39 percent of these postings failed to 
result in the identification of any desirable candidates, in 
significant part due to compensation constraints. As a result, 
the Office of Energy Projects has not been able to keep pace 
with staff attrition.
    These problems have not been confined to OEP. Many of the 
Commission's offices have had similar experiences. Over the 
past four years many of our offices have experienced double-
digit attrition rates that have been difficult to address 
despite our aggressive hiring efforts due to compensation 
constraints. Given the nine percent average attrition rate of 
engineers for the agency, our agency has not been able to rise 
above attrition.
    In FY 2016, engineers comprised 16 percent of the total 
number of agency-wide hires. Though there was growth in FY 2017 
with engineers making up 22 percent of total agency-wide hires, 
in FY 2018 that number plummeted to 13 percent. It is the 
lowest level in the past four years.
    Over the past four fiscal years as well, the Commission has 
made strategic--made hiring a strategic priority working 
diligently to hire ahead of the forecasted attrition. We have 
maximized our use of available Title V Recruitment Incentives, 
including offering one-time recruitment and relocation bonuses 
as well as using superior qualifications for setting pay above 
the minimum rate.
    Once employees are on board, we have also maximized our use 
of Title V Retention Incentives, including investing just over 
$1 million annually in providing student loan repayment program 
incentives to staff. Even with these flexibilities, 18 percent 
of candidates that declined offers noted they did so to pursue 
private sector opportunities that provide greater compensation.
    In summary, the language in S. 607, the Timely Review of 
Infrastructure, will assist the Commission in attracting and 
retaining the needed workforce with additional compensation 
authorities.
    This concludes my testimony. I'd be happy to answer any of 
your questions.
    [The prepared statement of Mr. Porter follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Senator Cassidy. Thank you, Mr. Porter.
    And now, Senator Shaheen.

               STATEMENT OF HON. JEANNE SHAHEEN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Shaheen. Well, thank you very much, Mr. Chairman 
and Ranking Member Heinrich. I appreciate your letting me bump 
into this panel. I hope the panelists don't mind two minutes. I 
know you're trying to get the Senators in and out before our 
votes start.
    I want to make three points about the Energy Efficiency and 
Industrial Competitiveness Act. I know that Senator Portman has 
already spoken to the bill, although I figured I needed to get 
here because I am sure he called it Portman-Shaheen, and I 
wanted to make sure we got the Shaheen-Portman piece.
    [Laughter.]
    Some of you remember we have introduced--first of all, it's 
about energy efficiency. And as everyone knows, energy 
efficiency is the cheapest, fastest way to deal with our energy 
needs. My favorite statistic is that over the last 40 years, we 
have saved more energy through efficiency than we have produced 
through fossil fuels and nuclear power combined in this 
country. So it is the low-hanging fruit.
    Second, this is a bill that has passed this Committee 
virtually every Congress that we've introduced it. We 
introduced it for the first time in 2011, and I think that 
speaks for itself. It has gotten hung up on various other 
issues that have really had very little to do with the specific 
provisions of the bill. And I think one of the reasons that 
it's gotten through the Committee so well in the past is 
because it's had this broad array of supporters, everyone from 
the leading builders of America, to the American Chemistry 
Council, to the National Resources Defense Council. It's very 
rare that we find a piece of legislation that has that broad a 
range of advocates supporting it.
    And third, we can actually pass it through the Congress 
this year.
    We have, I think, much more support in the House than we've 
had in some past sessions. It has strong bipartisan support. In 
the past, the last time it passed through the full Senate, it 
passed with an overwhelming bipartisan majority. So this is 
legislation that can get done. It can actually provide some 
savings. According to the American Council for an Energy-
Efficient Economy (ACEEE), if we pass this legislation, not 
only would it save consumers over $16 billion a year, it would 
create about 300,000 jobs and be the equivalent of taking 22 
million cars off the road. So there are real benefits to 
passing the legislation.
    I would urge the Committee to consider it and pass it out 
again so that we can actually make it into law.
    Thank you very much, Mr. Chairman.
    Senator Cassidy. I will note that Portman said 11 million. 
You said 22 million. We've got to keep at this. We are growing 
pretty quickly.
    Senator Shaheen. Well, let me just say that the statistics 
that I used on it were what we had from ACEEE the last time it 
was introduced, and we're still waiting for their updated 
analysis on the bill as we've reintroduced it in this session.
    Senator Cassidy. Got it.
    As I said earlier, I am going to submit my opening 
statement for the record.
    If there is no objection, I'll also ask that Pete Olson, 
who has introduced a bipartisan companion bill to the Timely 
Review of Infrastructure Act, that his statement be entered 
into the record, without objection, so ordered.
    [Representative Olson's statement follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Senator Cassidy. Martin, are you going to submit yours for 
the record?
    Senator Heinrich. I just wanted to ask unanimous consent 
that a number of letters of support for various pieces of 
legislation be included in the record.
    Senator Cassidy. Without objection.
    [Letters of support for various pieces of legislation 
follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Cassidy. Thank you, Senator Heinrich.
    I will defer my--I will defer until the end. I have to be 
here.
    So if Senator Hoeven would like to go first on our side, 
then I will----
    Senator Hoeven. Thanks, Doctor.
    I want to thank Governor Shaheen for being here today and 
express my strong support for Shaheen-Portman----
    [Laughter.]
    ----and also mention that it includes some outstanding 
pieces of legislation like the All-of-the-Above Federal 
Building Energy Conservation Act which is my bill, and that is 
another reason I am strongly supportive of advancing Shaheen-
Portman this year. And I know, I think, there are many other 
members on the Committee feel the same way.
    Thank you both to Senator Cassidy and Senator Heinrich for 
calling the hearing today. I appreciate it. And Senator Cassidy 
for allowing me to proceed.
    Mr. Secretary, CarbonSAFE is, the FOA has been released on 
CarbonSAFE now. And we have some projects, particularly Project 
Tundra in North Dakota, where we have not only some of the most 
sophisticated coal-fired electric companies involved putting 
money into the equation, but also the Energy Environmental 
Research Center at the University of North Dakota which we have 
the PCorp partnership with the Department of Energy doing the 
latest, greatest research on a collaborative basis with a 
number of states and Canadian provinces to capture and store 
CO<INF>2</INF> and then, the State of North Dakota through the 
Lignite Energy Council is also putting money in. So we have a 
partnership there. The partner we need is the Federal 
Government in order to put this retrofit technology on these 
coal-fired electric plants to capture the CO<INF>2</INF> and 
sequester it.
    The issue is not the technology to do it. We are certain 
that we can do it. As a matter of fact, we are already doing 
it, as I think you probably know, at Dakota Gasification 
Company. We are already sequestering huge amounts of 
CO<INF>2</INF>. But it has to become commercially viable, 
commercially viable. And we have the added opportunity in North 
Dakota of not only capturing it and storing it, geological 
storage, but also tertiary oil recovery which can create a 
revenue opportunity too.
    We are very anxious to see the FOA move forward and to be 
included, so would you address CarbonSAFE? How you plan to 
proceed and also I certainly would love to have you come out to 
North Dakota. We have had not only the Secretary but other 
members out there to see what we are doing.
    But your thoughts on including projects like ours because 
we have to get out in the field and actually start doing this 
to get to commercial viability. You have to be a partner. We 
need to make it happen. This is the solution, in terms of 
carbon for coal-fired electric, is that carbon capture and 
storage and this opportunity for tertiary recovery.
    So if you would please address that?
    Mr. Menezes. Well, thank you very much for your passion for 
supporting these technologies and, indeed, anyone who is 
familiar with what has been going on in North Dakota in the 
area of carbon capture, utilization and sequestration over the 
years knows that North Dakota has really been leading the 
efforts. This has been going on for years with the support of, 
with the Department and it goes back to, I think, as early as 
the Carter years, if I know this.
    I was fortunate enough to visit, really not in my capacity 
as Under Secretary but really in industry, trying to figure out 
if, in fact, we can get some of this technology that could be 
commercially available on to existing units.
    So, and your leadership on this, of course, is second to 
none.
    I think you'll be pleased to know that we have been working 
very diligently both on the CarbonSAFE and on the Tundra FOA 
and we--announcements on both are imminent.
    And I think that you will be pleased to know that we have 
been trying to meet deadlines and get these FOAs out and get 
the funding out. We know that the fiscal year ends September 
30th, so across the Department we are doing what we can, not 
only on these topics but across all of our FOAs, to get these 
FOAs out and the funding out as well. So I think you'll have 
some imminent news shortly.
    Senator Hoeven. Good. That is very encouraging.
    The other project I want to bring up quickly here is, we 
also have Red Trail Energy which is actually an ethanol plant. 
They are producing ethanol from corn, obviously, in North 
Dakota, and they want to do the carbon capture as well to sell 
low-carbon intensity fuel on the West Coast, same kind of 
thing.
    Your thoughts because now you are actually also doing 
carbon capture on a renewable fuel. We have that opportunity we 
are pursuing very aggressively. Your thoughts on that as well.
    Mr. Menezes. Well, you touched on a key topic. Carbon 
capture, utilization and sequestration is in no way limited to 
what traditionally are coal facilities. That's what we're 
thinking about. And indeed, Chairman Cassidy has a similar 
interest with respect to natural gas. The Department has an 
interest, not only on ethanol refiners itself, but all 
refineries, large industrial processes, cement, steel, across 
the way.
    Interestingly, when we talk about carbon capture, post-
combustion, you know, we have research underway for direct 
capture, the creation and the capture of the CO<INF>2</INF>, 
the making of products that could be converted into hydrogen, 
the use of hydrogen to furnish the plant, you know, the use of 
liquid fuels and natural gas.
    So, it's, we're looking at all of this across--the ethanol 
refinery is one example. We're looking at putting similar kinds 
of technologies anywhere where there's a post-combustion 
opportunity to capture the CO<INF>2</INF>, put it to use where 
we can, sequester it where we can or make other products out of 
it. So all of which is to ultimately lower, you know, the 
greenhouse gas emissions.
    Senator Hoeven. Yes, thanks, Secretary. And your 
willingness to move on this is really important and much 
appreciated.
    Mr. Menezes. Thank you for your support on these very 
important topics.
    Senator Hoeven. Thank you, Mr. Chairman.
    Senator Cassidy. Senator Heinrich.
    Senator Heinrich. I want to start by asking Mr. Menezes a 
question on a related issue.
    Back in 2007, Congress anticipated that lighting technology 
would advance rapidly, and certainly Sandia National Lab in New 
Mexico has been a huge part of that with developing our modern 
solid-state LED light bulbs.
    At a time when we are seeing a number of our colleagues act 
very responsibly with respect to energy efficiency--moving 
forward the Portman-Shaheen legislation, for example--I was 
utterly dismayed that the Department recently reversed the 
progress that we have made on light bulbs. And the answer I got 
was that it didn't square with the underlying statute, but the 
underlying statute was incredibly broad. In fact, Part IV said 
any other lamps that the Secretary determines are used to 
satisfy lighting applications traditionally served by general 
service, incandescent lamps.
    I want to know, why is the Administration turning back the 
clock on this? I just think it is absolutely nonsensical, and 
it is going to cost consumers an enormous amount of money.
    Mr. Menezes. Well, thank you for the question and allowing 
me to, sort of, demystify, you know, what transpired.
    We didn't roll back any existing standards. What we did was 
there was a definitional rule which sought to combine the 
definition of general service lamps and the general service 
incandescent lamps which in 2007 Congress painstakingly put 
very specific language in that in the general service lamps 
definition they carved out, specifically, the general service 
incandescent lamps, specifically to pull that out. They further 
limited what products could be in the incandescent.
    Senator Heinrich. But the language is actually quite broad.
    Mr. Menezes. Well----
    Senator Heinrich. It gives the Secretary broad authority to 
say any other lamps that the Secretary determines are used to 
satisfy lighting applications, traditionally served by general 
service incandescent lamps.
    Mr. Menezes. Well again, but it was also very specific on--
--
    Senator Heinrich. I think you are choosing to selectively 
apply the law.
    Mr. Menezes. Well, in any event on incandescent, Congress 
made clear that before any increase in energy efficiency 
standards for incandescents, it had to be economically 
justifiable. And what frustrated the past Administration was 
the appropriations rider that did not allow the agency to use 
any appropriated monies to do the economic analysis. That has 
been eliminated. We have now done the economic analysis. Now 
you might not like the result of the analysis, but Lawrence 
Berkley Lab and Navigant has done the economic analysis, and on 
the incandescent light bulbs it stated clearly that it was not 
economically justified, that the cost to increase the 
efficiency of these incandescents would not survive the life of 
the product. But it's a definitional rule is what we've done. 
We haven't announced any standards, but that's what the rule 
has done.
    And so, we think that this is more defensible in court 
because it does track, we think, what Congress intended----
    Senator Heinrich. I think it is----
    Mr. Menezes. ----in 2007.
    Senator Heinrich. ----frankly, indefensible at a time when 
we are seeing unprecedented weather events, whether you choose 
to accept that or not, when we are seeing floods in the Midwest 
that are ruining people's livelihoods, when you are seeing 
entire countries devastated by hurricanes, that we have an 
Administration that is seeking to turn back the clock on the 
progress that we have made and that has created an enormous 
amount of economic opportunity in this country with that 
progress.
    So I just want to say, once again, I think this is utterly 
disappointing that we have a Department of Energy that seeks to 
protect the technologies of the 19th century rather than 
embrace and improve the technologies of the 21st century.
    Mr. Menezes. Well again, there were no standards that we 
changed in the rule. It was purely definitional. So standards 
continue to exist, and we'll continue to look at that.
    By the way, our complete analysis is all contained in the 
public record. We've asked for public comments until November 
4th. This is not, in any way, a final rule. We take public 
comment and then we can issue a final rule thereafter, so----
    Senator Heinrich. I think you have had my--
    Thank you, Chair.
    Mr. Menezes. ----invite even more comment on that.
    Senator Cassidy. Senator McSally.
    Senator McSally. Thank you, Chairman Cassidy, Ranking 
Member Heinrich for holding this hearing today and for 
including the Nuclear Energy Renewal Act which I am proud to 
sponsor with Senator Coons.
    Our bill will help support existing nuclear power plants by 
investing in DOE research that these plants use to improve 
efficiency, safety, and longevity of our nation's nuclear power 
fleet.
    As you know, Arizona is a leader in our nuclear energy and 
the technology. The Palo Verde Nuclear Generating Station in my 
state is the largest electricity-generating plant of any source 
in the United States. According to Arizona Public Service, APS, 
who operates Palo Verde, the amount of clean power produced 
over the plant's lifetime has offset the emissions of nearly 
484 million metric tons of carbon dioxide. That is the 
equivalent of taking 84 million cars off the road for a year, 
and this is just for Palo Verde.
    Our nation's fleet of nearly 60 nuclear power plants keep 
more than 550 million tons of carbon dioxide emissions out of 
the atmosphere every year. This means any serious conversation 
about reducing carbon emissions must include serious support 
for our nuclear plants.
    So I want to talk a little bit about our bill.
    Secretary Menezes, in your testimony you identified nuclear 
energy as a strategic national asset for the U.S. I would like 
you to elaborate a little bit more on that, and what role do 
plants like Palo Verde play in providing energy security for 
our nation's electrical grid?
    Mr. Menezes. Well, thank you for that question.
    And the Department of Energy realizes that without our 
leadership in civilian nuclear energy, we are yielding 
technological expertise and superiority to other countries who 
are developing new fuels, new reactors and they are really 
beating us, if you will, at maintaining the global leadership.
    It's imperative for us, whether you're pro-nuclear or not, 
to, frankly, support efforts to maintain and to increase that 
ability to be able to compete, all for other countries, these 
new technologies that are state-of-the-art and when economic 
conditions potentially change in the U.S., that we can build 
more nuclear facilities.
    And at the Department when you look, you know, we are 
supporting the AP1000 technology and that plant that's being 
built in Georgia. We also have plans with the support of 
Congress to develop small modular reactors, and we hope to site 
one of those facilities, perhaps, at Idaho. We're also looking 
at other locations. But it's very important that we develop 
these new fuels for the existing fleet, and we need to be able 
to put in place testing reactors for the future fleet.
    It's important that we, as we replace fossil using fuels, 
you have to have nuclear to provide baseload generation that 
continues to drive the economy.
    And so, I ask people to look at nuclear in a different 
light than they may have looked at in the past. And while it is 
not an inexpensive technology, it is important that we maintain 
our current fleet, that we seek ways to relicense them, that we 
do seek to deal with the waste issue but that we do put 
resources together so that we can really develop those 
technologies of the future so that other countries look to us, 
rather than China, Russia and other countries that are 
developing this technology.
    So it's important for the United States, we think, to 
really push hard on this.
    Senator McSally. I agree.
    Mr. Menezes. And the existing fleet is important.
    Senator McSally. Oh, that is what I wanted to get to as 
well.
    In the research done at DOE, can you just speak to it, 
which is reauthorized and modernized and updated in our 
legislation. How important is that, specifically, for our 
efficiency and the longevity of our current nuclear fleet like 
we have at Palo Verde?
    Mr. Menezes. Right.
    Well, and as I mentioned, we have programs that need to, 
you know, be reauthorized and they look at a variety of 
different things within the nuclear industry.
    For existing facilities, it really is, it's the fuel cycle. 
How do you make improvements there? It's the cycle itself, it's 
the reactors themselves but it's also accident tolerant fuels. 
So we're making new fuels that will replace the existing fuels, 
minimize waste problems down the line.
    The reactors, we need to push the envelope on advanced test 
reactors and versatile test reactors. Congress has been very 
good about identifying that you need to do that. Right now, we 
do not have that capacity. So those that come up with great 
ideas they go to other countries and they're not countries that 
we would want them to go to, to be absolutely frank about it.
    It's in those areas that we need to continue those 
programs, and so that's why we are----
    Senator McSally. Great, thanks.
    I am out of time. I just want to say I appreciate your work 
on this and thanks for including our bill.
    Senator Cassidy. Senator King.
    Senator King. I don't really have too many questions for 
these witnesses. I will wait for the markup to talk about some 
of the provisions of the bill.
    My one question is on the nuclear bill.
    Mr. Menezes, my only problem is we made a promise to the 
American people 70 years ago that we, the Federal Government, 
would take care of the waste from nuclear plants. It bothers me 
that we are talking about modernizing, relicensing, and 
extending and we still haven't kept that promise.
    I live in a state that has a big slug of high-level nuclear 
waste sitting on an island waiting for the Federal Government 
to honor that commitment.
    Don't you think it makes more sense to solve that problem 
before we start talking about relicensing, license extensions 
and new plants, and new technologies?
    Mr. Menezes. Well, a very good question and I wish I knew 
the answer on how it is that we can do what Congress had 
directed the Department to do some time ago and that is to 
license Yucca Mountain. That is still the current law. It's a 
permanent repository. Congress made that clear. We only have 
had limited resources that we can pursue that.
    And so, it's really up to Congress and the appropriators to 
determine whether or not we have the resources to be able to 
develop that.
    I'm aware that there are many in Congress that believe that 
Yucca Mountain is not the answer, that they may wish to have 
interim storage or any other kinds of programs and that 
certainly is the prerogative of the Congress.
    We're happy to go any way on the technology, whether it's 
the Yucca Mountain, permanent storage. I think we have done 
sufficient research and development there that we can pursue 
that if Congress gives us the resources.
    And likewise, if it's dry cask, if it's some type of 
interim, you know, we know that other countries have proven 
technologies and I think that, you know, there's probably 
several solutions potentially to this, but as the law is right 
now, it's still Yucca Mountain as the permanent repository. And 
we are paying $2 million a day in taxpayer monies to be in 
compliance with the Yucca Mountain. We are found not to be in 
compliance and, it's costing the taxpayers $2 million a day.
    Senator King. Thank you.
    I certainly hope this is a question that we can ultimately 
address. I feel like this is just one more deficit that we are 
handing off to our children.
    Thank you, Mr. Chairman.
    Senator Cassidy. Senator Cantwell.
    Senator Cantwell. Thank you, Mr. Chairman, and thanks to 
Ranking Member Heinrich for holding this hearing. I wasn't sure 
whether we were going to hear from Commissioner Chatterjee or 
not, but thank you, Mr. Porter, for being here.
    We certainly want to keep the FERC organization running as 
professionally as possible. It is so important for us to focus 
on the important tools that the Federal Energy Regulatory 
Commission has when it comes to market manipulation and keeping 
our markets at just and reasonable rates.
    I believe one of the most important things is that ``cop on 
the beat'' looking at who is out in the marketplace and what 
they might be doing, and we clearly want to make sure that 
those kind of enforcement provisions are being used.
    And so, one of the concerns that I have is making sure that 
the Commission--there are recent reports that FERC's Office of 
Enforcement may not be being as vigilant as they have been in 
the past and might not be going after as many bad actors. Could 
the Chairman use his authority to stop investigations without 
other Commissioners or any sort of public scrutiny?
    Mr. Porter. Obviously, the Chairman has the capability to 
direct staff activities, but it has been my understanding that 
the Commission is supportive of the established processes that 
are in place. The Office of Enforcement is conducting 
appropriate due diligence and looking into areas where there is 
potential manipulation. So from my perspective, the Office is 
still exercising its responsibilities under the law.
    Senator Cantwell. I think it is my understanding that in 
May, FERC rescinded its policy on issuing notices of alleged 
violations. In other words, stockholders or the public are no 
longer being informed that FERC has determined that certain 
market players are under scrutiny for uncompetitive and 
possibly illegal behavior.
    Mr. Porter. Senator, again, it is my understanding that the 
Office of Enforcement is executing its responsibilities in a 
comprehensive way.
    Senator Cantwell. Okay.
    Could you get me a statistical analysis of that, the 
enforcement actions that have been done at the Office in the 
last, say, year?
    Mr. Porter. Yes, I could go back and confer with staff and 
provide a response for the record.
    Senator Cantwell. Okay, thank you, I appreciate that.
    [Statistical analysis for Office of Enforcement at FERC 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Cantwell. But please hear me loud and clear--we are 
going to be very vigilant on this issue, because we need FERC 
to be vigilant on this issue.
    Mr. Porter. I understand.
    Senator Cantwell. Thank you.
    Mr. Menezes, thank you so much for coming to the Pacific 
Northwest. We all enjoyed your comments at the Pacific 
Northwest National Laboratory (PNNL).
    I wanted to follow up a little bit on some of the questions 
similar to what Senator Heinrich was more or less alluding to. 
I know you are a big booster of the all-of-the-above approach, 
but I know that there are predictions by Next Era, the world's 
largest utility company, that solar plus storage will be 
cheaper than coal, oil, or nuclear even after the federal tax 
credits expire.
    I think just yesterday Los Angeles Municipal Utility 
approved a contract for the cheapest solar and energy storage 
to date. It is like, I think, a 400-megawatt facility.
    What do you think of this renewable storage point that we 
are leading to, and the competition with these other fuel 
sources that are going to still be on the table?
    Mr. Menezes. Well, thank you for the question.
    And as you are aware, this is precisely why we've chosen 
PNNL for the grid storage launch. It's to do precisely what you 
described, and PNNL will be the location.
    And so, one of the reasons that you saw me out there at the 
Business Leaders Meeting--we then spent a good portion of two 
days at PNNL because, as you know, we fund a lot of the PNNL 
from the applied side and, particularly, with combining storage 
and renewables.
    We, I think everybody will agree that if we can figure out 
the breakthrough technologies in storage at grid-scale, we will 
accomplish an awful lot of some of our energy challenges. But 
that still is a tremendous challenge.
    Lithium, is it lithium-ion in battery? You know, we don't 
recycle lithium-ion. That's why we started a recycling lithium-
ion program. But it's storage.
    When you look at the intermittency of solar and wind it can 
be combined with load following, whether it's hydro, whether 
it's nuclear, whether it's natural gas. But if you have storage 
that can load follow, follow or provide energy, I think that's 
what, as someone described is, you know, it's the Holy Grail, 
if you will, of the energy technology.
    But----
    Senator Cantwell. So you think it is cost-effective? You 
think it will be this cost-effective, which is about how 
successfully can you scale those solutions.
    Mr. Menezes. Well, and as you know, in EERE, the Office 
that looks at this stuff, we always have goals to achieve. 
It's--and typically, whether it's cost, whether it's 
efficiency, whether it's production, it has to be economic. 
Affordability is a key to everything we do. If we can develop a 
technology but no one can afford it, as some of the battery 
technology is, we're not really accomplishing a whole lot. So 
the goal is to bring down the cost and to make it very 
efficient.
    Senator Cantwell. Thank you, Mr. Chairman, sorry I went 
over there. Thank you.
    Senator Cassidy. I will ask my questions now and if you can 
keep your answers tight, I will try and get a lot of questions 
in.
    Mr. Porter, obviously my bill concerns how do we get 
workforce out there. Your testimony pertained to that.
    You referenced the average salary in Washington, DC, for 
petroleum engineers in the private sector versus FERC, but 
economists are also important in this.
    Do you have figures available to share with us on the 
average private sector salary for economists versus that which 
FERC offers in Washington, DC?
    Mr. Porter. Yes, Chairman, I do.
    The rate offered by Washington area firms for the services 
of economist is 13 percent above the median rate paid by the 
Commission.
    Senator Cassidy. And in absolute dollars what is it?
    Mr. Porter. In absolute dollars we're looking at what is 
offered in the private sector, $138,600 versus $122,600 by the 
Commission.
    Senator Cassidy. Okay.
    And what is the current attrition rate for economists?
    Mr. Porter. The current attrition rate for economists is 
roughly 19 percent.
    Senator Cassidy. Okay. Really? That's a bad attrition rate, 
man.
    Mr. Porter. Yes, it is.
    Senator Cassidy. In your testimony you share that there are 
limited contractors who can assist with liquefied natural gas 
inspections because the contractors also work at private 
industries and you say FERC is concerned regarding the conflict 
of interest. However, working with outside contractors was 
originally cited in 2018 as a benefit by the revised 
environmental schedules FERC announced for 12 LNG projects.
    Can you tell me what is the average cost to contract with 
one of these engineering firms to conduct these site 
inspections?
    Mr. Porter. I don't have specific data relative to 
individual inspection cost, but I can provide a little light on 
recent issues with contracting.
    In 2018 we awarded $200,000 to cover services for these 
inspections. We went through a competitive procurement process. 
Unfortunately, engaging in that process we only had one capable 
provider. The provider could not staff up to a sufficient level 
to support our activities and, thus, we moved away from that 
specific strategy.
    We met the workload requirement by engaging the LNG staff. 
Those staff worked additional overtime to meet the mission. 
That is not a sustainable strategy, however.
    Senator Cassidy. Got it.
    So then, that begs the question, what is the average salary 
FERC can offer to someone who does these inspections versus 
what they would earn in the private sector?
    Mr. Porter. Well, I would select, for example, petroleum 
engineers and petroleum engineers in the area earn 
approximately $176,000. FERC can only offer roughly $123,000.
    Senator Cassidy. Okay. I know what I want my son to study 
in college.
    Mr. Porter. Petroleum engineers, a very profitable field, 
sir.
    Senator Cassidy. And you have implied this, but can you 
tell me how this attrition rate and inability to fill openings 
has impacted FERC? Have you had to lower qualifications in 
order to get these positions filled? Should we be concerned 
about that or no, it is actually an inappropriate response?
    Mr. Porter. No, we have not lowered qualifications. In 
fact, what has happened, we've advertised positions multiple 
times because we didn't identify desirable candidates. But we 
have not lowered qualifications in any way which, you know, if 
we did, I would think would have a negative impact on our 
responsibilities.
    Senator Cassidy. Obviously, my legislation and that of 
Congressman Olson, Senator Murkowski, et cetera, hopes to help 
with this.
    How would this legislation impact FERC's requirement to 
offset its appropriation from Congress through fees?
    Mr. Porter. I would treat any increases associated with 
additional salary similarly to any other increases we request 
in our budget. I think we already have appropriate coverage 
with regard to existing legislation that supports our ability 
to recover our full cost.
    So what we would attempt to do is manage this in such a way 
that it wouldn't impact our jurisdictional entities whom we 
recover costs from in any one given fiscal year.
    Senator Cassidy. Got it.
    Mr. Under Secretary, nuclear for non-electric applications, 
let's talk about that.
    As the costs of electricity declines with natural gas and 
renewables, some experts, including those at MIT and the 
International Energy Agency, think that the future of nuclear 
may be in applications outside the electric power sector or in 
a hybrid energy system coupling nuclear energy with other 
resources. One particularly interesting area is industry where 
nuclear could provide high temperature heat.
    How much work is DOE conducting on non-electric, nuclear 
energy research and hybrid energy systems and do you plan to 
expand this?
    Mr. Menezes. Well, thank you for the question.
    Indeed, it's thermal heat. We have been looking for other 
uses for nuclear thermal heat, as you mentioned. And we just 
announced this week a new award to demonstrate hydrogen 
production at an existing nuclear plant at $9.2 million--it's 
FirstEnergy's Besse plant in Ohio--as illustrative of our 
efforts to try to take advantage of this very clean-generated, 
emission-free generated thermal heat.
    So whether it's water desal, whether it's making hydrogen, 
whether it's using the heat for, you know, high heat, high 
intensity manufacturing processes, we're looking very carefully 
at that.
    One of our labs, Idaho National Labs in particular, also 
has a project underway to look at using thermal heat generated 
from nuclear facilities for these other uses.
    Senator Cassidy. And so, if you will, the payoff in terms 
of avoidance of carbon emissions is a little greater in this 
application than it would be for run-of-the-mill electricity 
production.
    Mr. Menezes. Right, precisely.
    Senator Cassidy. Okay.
    Well, I thank you all.
    Mr. Menezes. Can I just add something on the bill?
    Senator Cassidy. Sure.
    Mr. Menezes. Just to give you a real-life example. So, you 
know, FERC is within DOE an independent agency. This shortage 
of man power was very real over there and, as you know, we have 
expertise at our national labs that can help with some of the 
modeling that is required here.
    And Senator Heinrich, I want to give you this example. On 
some of the LNG applications, for example, it's beyond just the 
engineering of the facility itself, it's some of the modeling 
that what happens if in fact the facility is constructed and is 
operating in an area.
    And so, you do consequential modeling in the event, you 
know, for safety concerns like this. Well, so I think they had 
lost some of their expertise. This is, you know, fairly highly 
specialized, this type of modeling. So we decided to canvas our 
labs to see if we had anything. Well, sure enough, at Sandia, 
you know, we have some of the world preeminent consequential 
modelists, and they have developed very sophisticated modeling. 
So as a sister agency you think you can offer that service to 
FERC. Well, you know, as it turns out it's government-owned. I 
mean, it's a private contractor that runs the lab and so as a 
consequence, it's not the fed salary that they would pay or the 
time but it's the contractor's pay which is probably three 
times the federal pay.
    So even though a sister agency had the resources, now they 
were very busy at Sandia, they couldn't drop everything that 
they were doing to turn to this, but within time and six months 
they said they could probably do it.
    But the expenses were still very, very steep for FERC, even 
though we had that ability in a national lab. But they really 
had no way to be able to utilize that. So I'll just give you 
that as a real-life experience on when we tried to, you know, 
come and help because we really are losing a lot of government, 
even at our labs, we had the same thing. We're losing a lot of 
qualified people to you know, we compete in the private sector.
    And so, the workforce bills that you have here are very 
helpful and we just wanted to weigh in with that.
    Senator King. Mr. Chairman?
    Mr. Chairman, this is a very interesting subject. It seems 
to me what you have demonstrated here today is that federal 
employees are underpaid. I suspect you could have a hearing 
exactly like this with virtually every other agency of the 
Federal Government.
    What bothers me about this bill is this one little section 
of one agency and yet, the problem exists everywhere in the 
Federal Government.
    I understand the problem you want to fix in a particular 
area, but you have opened up a big box here. I am sure the 
Administration will be very excited to learn that the Congress 
thinks the federal employees are underpaid, but that is what 
this hearing is all about. That is what you just demonstrated 
with the data.
    But we could have 20 hearings like this with the Pentagon, 
with the Department of the Interior, with the Department of 
Justice, comparing legal salaries on K Street to legal salaries 
at the Department of Justice. It would make this look like a 
walk in the park. So I just make that observation.
    Senator Cassidy. I will say my intuition is that STEM-
related fields are fields which are math intensive or those 
which are most competitive, both whether it is education or 
whether it is government or whether it is the private sector 
which is not to say that if there are people at the Department 
of Education that they may not be doing less well than their 
colleagues in the private sector. But STEM does seem to be that 
which is highest demand no matter where you go.
    I think ours is kind of more focused on those people with 
that background, but your account is well taken.
    Thank you very much.
    Questions for the record will be due by close of business 
tomorrow.
    Thanks to our witnesses.
    And our meeting is now adjourned.
    [Whereupon, at 3:15 p.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------   
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              

</pre></body></html>
